17CA0847 Peo v Sayed 02-13-2020
COLORADO COURT OF APPEALS

DATE FILED: February 13, 2020

Court of Appeals No. 17CA0847
Logan County District Court No. 15CR120
Honorable Charles M. Hobbs, Judge
Honorable Michael K. Singer, Judge
The People of the State of Colorado,
Plaintiff-Appellee,
v.
Hazhar A. Sayed,
Defendant-Appellant.

JUDGMENT AFFIRMED
Division IV
Opinion by JUDGE FURMAN
Welling and Pawar, JJ., concur
NOT PUBLISHED PURSUANT TO C.A.R. 35(e)
Announced February 13, 2020
Philip J. Weiser, Attorney General, Trina K. Taylor, Assistant Attorney General
Denver, Colorado, for Plaintiff-Appellee
Patrick R. Henson, Alternate Defense Counsel, Denver, Colorado, for
Defendant-Appellant

15c 1

1 1

A jury found Hazhar A. Sayed, an inmate, guilty of one count

of second degree assault and one count of third degree assault after
an altercation between Sayed and a corrections officer. The trial
court sentenced him to three years in prison.
12

On appeal, Sayed contends we should reverse his conviction

because the trial court (1) violated his Fifth Amendment rights by
admitting evidence of his silence; (2) did not give an affirmative selfdefense instruction to the jury; and (3) allowed the trial to proceed
without ordering a competency evaluation for him.
13

Because we conclude that any error in admitting evidence of

Sayed’s silence was harmless beyond a reasonable doubt, and
disagree with Sayed’s final two contentions, we affirm the judgment
of conviction.
I.

Sayed’s Trial

14

At trial, the jury heard the following evidence.

15

Sayed was an inmate in the custody of the Department of

Corrections (DOC) who filed a grievance about the prison’s policies.
Captain Michael Tidwell escorted Sayed from his cell to an office
where the two could discuss Sayed’s grievance.

1

9rww.4ftnoo

7.moo

a

116

Tidwell testified that while they were walking toward the office,

Sayed balled up his fists, took an “aggressive stance,” and said,
“We’re going to fight.” Tidwell ordered Sayed to “get on the wall” so
he could restrain him. But Sayed again said, “We’re going to fight,”
and moved toward Tidwell.
117

Fearing for his safety, Tidwell grabbed Sayed’s arms and

pushed him toward the wall. Sayed struck him in the face. Then,
the two exchanged punches. Tidwell attempted to “utilize an inside
takedown” on Sayed but slipped to one knee. Then, he testified,
Sayed hit him in the back of the head. Eventually, Tidwell wrestled
Sayed to the ground.
Tidwell testified that Sayed tried to stab him with a ballpoint
pen while they were on the ground. He also testified that Sayed hit
him in the face, “towards the eye,” on the nose, on the top of his
head, and in the back. After thirty seconds, another corrections
officer came to help Tidwell. This officer testified that he saw Sayed
“stabbing at [Tidwell] in a downward motion,” so the officer struck
Sayed in the chest. Sayed continued to hit Tidwell, so the officer
used “knee strikes” on Sayed until other officers arrived. The

2

2003240033 4503 7-1023 5

altercation ended when other officers arrived and used a taser on
Sayed.
19

Tidwell testified that he was “bleeding pretty badly” from the

top of his head. A third corrections officer testified that she saw
blood coming from Tidwell’s head and took him to receive medical
assistance.
1 10

The jury saw security footage of the altercation, along with

photographs of blood on the floor, a bent ballpoint pen, blood on
Tidwell’s uniform, and some bruising near Tidwell’s left eye.
1 11

Sayed testified that he never struck nor stabbed Tidwell. He

also testified that the prison guards assaulted him because they
mistook him for a “snitch” and a “federal informant.” And he
claimed that someone tampered with the security footage of the
altercation.
II.
A.
1 12

Evidence of Sayed’s Silence
Testimony About Sayed’s Silence

After Sayed testified, the prosecution called a DOC investigator

as a rebuttal witness. The prosecution engaged the investigator in
the following line of questioning:

3

2003240033 4503 7-1023 6

Q: You heard all of the defendant’s testimony
today?
A: Yes.
Q: Did he tell you everything today that he told
you back on [the day of the charged offenses]
when you saw him?
A: No.
Sayed objected, contending that these questions violated his Fifth
Amendment right to remain silent. The court overruled Sayed’s
objection, and the prosecutor continued,
Q: Allow me to state the question again,
Investigator.
You heard everything the defendant testified to
in court today?
A: Yes.
Q: Did he tell you the same account back on
May 2, 2015, when you met with him?
A: No.
On cross-examination, Sayed’s counsel asked the investigator
Q: When you met with him[,] he actually said I
have nothing to say to you, turned around,
and walked away; right?
A: Correct.

4

7.h<v)o -r

Q: He didn’t make any statement at all, did
he?
A: Correct.
Q: Yeah. So it’s not that he made a different
statement. . . it’s that he didn’t make any
statement as is his right; right?
A: Correct.
If 13

Sayed contends that the investigator’s testimony violated his

Fifth Amendment right against self-incrimination.
B. Constitutional Harmless Error
If 14

Because Sayed preserved this contention and claims an error

“of constitutional dimension,” we review for constitutional harmless
error. Hagos v. People, 2012 CO 63, If 11. Under this standard, if
we perceive an error, we will reverse unless the error is harmless
beyond a reasonable doubt. Id. An error is harmless beyond a
reasonable doubt if there is no reasonable possibility that it
contributed to the conviction. Id. The People bear the burden of
proving that a constitutional error was harmless beyond a
reasonable doubt. Id.

5

2003940033 4*50.3 7-1093 ft

If 15

The People contend that any error in admitting evidence of

Sayed’s silence was harmless beyond a reasonable doubt. We agree
with the People, for three reasons.
II 16

First, the reference to Sayed’s silence was brief. The only

evidence of Sayed’s silence came in during his counsel’s crossexamination of the DOC investigator. And the prosecution never
commented on Sayed’s silence during its opening statement , casein-chief, or closing argument.
1f 17

Second, the evidence at trial strongly established that Sayed

committed the two offenses of which the jury found him guilty.
Tidwell testified that Sayed struck him in the face and the back of
the head. Tidwell also testified that Sayed hit him in the face,
“towards the eye,” on the nose, on the top of his head, and in the
back while the two men were on the ground. The jury also heard
Tidwell and another officer testify that Tidwell’s head was bleeding.
And, the jury saw photographs of bruising near Tidwell’s left eye,
blood on the floor where the assault occurred, and drops of blood
on Tidwell’s uniform. Taken together, this evidence strongly
established that Sayed committed the two offenses of which the juiy
found him guilty.
6

oiwao/ifwj'a

7.1(10*1 n

1 18

And third, the jury returned a split verdict, acquitting Sayed of

first degree assault; finding him guilty of the second degree assault
by 3- person lawfully confined or in custody; and finding him guilty
of third degree assault, a lesser included offense on count three.
The split verdict suggests that the jury did not blindly infer Sayed’s
guilt from the brief reference to his silence, but instead focused on
the evidence the prosecution introduced at trial. See Martin v.
People, 738 P.2d 789, 796 (Colo. 1987) (A jury’s split verdict
suggested that “the jurors exercised some discretion in their
deliberations and did not blindly convict the defendant based upon
inferences drawn from the nature of the [defendant’s] previous
conviction.”).
1 19

For these reasons, we see no reasonable possibility that the

evidence of Sayed’s silence contributed to the two guilty verdicts.
Hagos, f 11. Thus, we need not decide whether the evidence
violated, or even implicated, Sayed’s Fifth Amendment rights.
III.
120

Self-Defense Jury Instruction

We next conclude that Sayed waived his right to request a self-

defense jury instruction.

7

vnraoAM*'*

7.1 noo m

121

Waiver is the “intentional relinquishment of a known right or

privilege.” People v. Rediger, 2018 CO 32, | 39 (quoting Dep’t of
Health v. Donahue, 690 P.2d 243, 247 (Colo. 1984)). A waived claim
of error presents nothing for an appellate court to review. People v.
Tee, 2018 COA 84, Tf 14 (citing People v. Bryant, 2013 COA 28, f 13
n.2). Thus, a party who waives an issue extinguishes appellate
review of that issue. Rediger, 1 39.
122

At a hearing on the morning of trial, the trial court and

Sayed’s counsel had the following discussion:
[Court]: Could you share with the Court — is
the defense in this matter a general denial or
are there affirmative defenses?
[Sayed’s Counsel]: Yes, it’s a general denial.
[Court]: Are there any affirmative defenses that
are likely to be raised?
[Sayed’s Counsel]: I have discussed affirmative
defenses and there are not affirmative defenses
that Mr. Sayed wishes to proceed with. So I
am limited on my ability, as the Court knows.
I can’t offer an affirmative defense without his
okay. And he is adamant that he was not
responsible for the assault that happened and
it was not an assault that happened at his
hands.

8

9009940099 4*a"»9 7.1009 11

Consistent with, this exchange, Sayed’s counsel requested multiple
jury instructions at the close of evidence but did not request an
affirmative defense instruction.
123

The record establishes that Sayed knowingly and intentionally

waived his right to request an affirmative defense instruction. So,
there is nothing for us to review. See id. at

40 (“[A] waiver

extinguishes error, and therefore appellate review ....”).
IV.
124

Competency Evaluation

We last conclude that the trial court did not err by declining to

order a competency evaluation for Sayed.
125

Due process dictates that a defendant may not be tried or

sentenced while incompetent to proceed. § 16-8.5-102(1), C.R.S.
2019; People v. Corichi, 18 P.3d 807, 810 (Colo. App. 2000). A
defendant is incompetent to proceed if a mental or developmental
disability prevents him from (1) “having sufficient present ability to
consult with [his] lawyer with a reasonable degree of rational
understanding in order to assist in the defense” or (2) “having a
rational and factual understanding of the criminal proceedings.”
§ 16-8.5-101(5), C.R.S. 2019. If the court “has reason to believe
that the defendant is incompetent to proceed,” it shall suspend the
9

proceedings to determine whether the defendant is competent.
§ 16-8.5- 102(2)(a). And, if there is “sufficient doubt” that the
defendant is competent, due process requires the court to make a
competency determination before proceeding. People v. Kilgore, 992
P.2d 661, 663 (Colo. App. 1999).
U 26

But due process does not require trial courts to “accept

without questioning a lawyer’s representations concerning the
competence of his client.” Id. (quoting People v. Morino, 743 P.2d
49, 51 (Colo. App. 1987)). And a defendant is presumed to be
competent to stand trial. People v. Stephenson, 165 P.3d 860, 866
(Colo. App. 2007).
If 27

Because the trial court is in the best position to observe the

defendant’s actions and demeanor, “it has substantial discretion in
determining whether a legitimate issue respecting that defendant’s
competency has been raised.” Kilgore, 992 P.2d at 663-64. Thus,
we will affirm the trial court’s competency determination absent an
abuse of discretion. Stephenson, 165 P.3d at 866. A trial court
abuses its discretion only if its decision is manifestly arbitrary,
unreasonable, or unfair. Id.

10

If 28

On the morning of trial, the court held a “Bergerud” hearing

with Sayed and Sayed’s counsel outside the presence of the
prosecution. See People v. Bergerud, 223 P.3d 686, 702-03 (Colo.
2010) (“When a defendant requests substitute counsel. . . the trial
court must be able to inquire into the details of a dispute between a
defendant and his attorneys — outside the presence of opposing
counsel

”). During this hearing, Sayed told the court that he

wanted to continue the trial so he could interview 120 other
inmates who witnessed the assault and investigate whether the
videotapes of the assault had been altered.
1 29

At the end of the Bergerud hearing, Sayed’s counsel asked

“whether the Court believes . . . we have any issues with
competency to proceed . . . .” Sayed’s counsel stated, “I’m not
raising competency as an issue right now” but asked for a “very
short discussion as to whether ... the court believes that some of
[Sayed’s] more fantastic claims” made the court question whether
Sayed was competent to proceed.
130

The trial court responded, “Even though I refer to his theories

as somewhat fantastical or conspiratorial, nothing that Mr. Sayed
has presented to me, either in writing or in his presence today,
11

* coo

t

< Ann

suggested to me that I would raise competency.” And the trial
began later that day.
11 31

Based on this exchange, we question whether Sayed preserved

the issue of competency. Even so, we need not address the issue of
preservation because we conclude the trial court did not abuse its
discretion in declining to order a competency evaluation for Sayed.
1132

The following facts support the trial court’s assessment of

Sayed’s competency. Sayed instructed his counsel not to pursue an
affirmative defense because he was “adamant” that he did not
assault the prison officer. This suggests he had the “present ability
to consult with [his] lawyer with a reasonable degree of rational
understanding in order to assist in the defense.” § 16-8.5-101(5).
Sayed’s counsel stated that Sayed “is well spoken and presents
well.” And the trial court stated that after observing Sayed in
person and reviewing Sayed’s pro se fillings, the court had seen
“nothing” suggesting that Sayed was incompetent to proceed. See
Stephenson, 165 P.3d at 866. We again note that the trial court
was in the best position to assess Sayed’s competency. Id.; Kilgore,
992 P.2d at 663-64.

12

AWl 7.1MQ 1K

133

We also note that Sayed’s counsel suggested she agreed with

the trial court’s assessment of Sayed’s competency. After the trial
court said it saw “nothing” suggesting Sayed was incompetent,
Sayed’s counsel responded, “And I haven’t raised [competency] up
until now based on kind of that same analysis. I was just
wondering if the Court was having a different view of that than
perhaps I was.”
134

Based on these facts, we conclude that the trial court did not

have reason to believe Sayed was incompetent to proceed to trial.
Thus, the court did not abuse its discretion when it declined to
order a competency evaluation for Sayed.
V.
135

Conclusion

The judgment is affirmed.
JUDGE WELLING and JUDGE PAWAR concur.

13

T.-mo-a ic

PROPERTY OF OFFENDER SAYED # 133608 PURCHASED FROM LEGAL ACCESS 1 PAGE

$0.25

Sayed v. People, 2020 Colo. LEXIS 615
Supreme Court of Colorado
June 29, 2020, Decided
No.20SC209
Reporter
2020 Colo. LEXIS 615 *
Petitioner: Hazhar A. Sayed, v. Respondent: The People of the State of Colorado.
Notice: DECISION WITHOUT PUBLISHED OPINION
Prior History: [*1] Court of Appeals Case No. 17CA847.
Opinion
Petition for Writ of Certiorari DENIED. EN BANC.

Copyright © 2020 LexisNexis. All rights reserved.RELX Group Logo

I

I

EXHIBIT

I

J

